<html>
<title> - THERESA ALVILLAR-SPEAKE NOMINATION</title>
<body><pre>[Senate Hearing 107-197]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 107-197

                           SPEAKE NOMINATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                 on the

 NOMINATION OF THERESA ALVILLAR-SPEAKE, NOMINEE TO BE DIRECTOR OF THE 
        OFFICE OF MINORITY ECONOMIC IMPACT, DEPARTMENT OF ENERGY

                               __________

                             JULY 27, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
76-447                     WASHINGTON : 2001


____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     1
Feinstein, Hon. Dianne, U.S. Senator from California.............     1
Speake, Theresa Alvillar, Nominee to be Director of the Office of 
  Minority Economic Impact, Department of Energy.................     3

 
                   THERESA ALVILLAR-SPEAKE NOMINATION

                              ----------                              


                         FRIDAY, JULY 27, 2001

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Daniel K. Akaka 
presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. Because this is a special meeting here, I 
want to say hafa adai to all of you, and aloha. The hearing 
will come to order. I welcome our guests, our witnesses to this 
hearing, particularly those of you who have traveled from Guam.
    Our hearing this morning is on the nomination of Theresa 
Speake to be the Director of the Office of Minority Economic 
Impact at the Department of Energy, and on two bills pertaining 
to Guam. They are H.R. 308, the Guam War Claims Review 
Commission Act, and H.R. 309, the Guam Foreign Investment 
Equity Act, and we will begin this morning with Ms. Speake's 
nomination.
    Without objection, Ms. Speake's written statement, her 
committee questionnaire and her financial statements will be 
entered into the record.
    Ms. Speake. Thank you.
    Senator Akaka. Senator Feinstein wanted to be here to 
introduce you to the committee but had to catch an airplane to 
California. That is halfway to Hawaii. She has provided us with 
a written statement which, without objection, we will enter 
into the record.
    Ms. Speake. Thank you.
    [A prepared statement from Senator Feinstein follows:]

       Prepared Statement of Hon. Dianne Feinstein, U.S. Senator 
                            From California

    Mr. Chairman, I am pleased to welcome Theresa Alvillar-Speake and 
say a few words to introduce her to the Committee.
    Ms. Alvillar-Speake has been nominated by the President to be 
Director for the Office of Minority Economic Impact in the Department 
of Energy. This is the office that advises the Secretary of Energy 
about the effects of policy on minorities and minority business 
enterprises.
    In her previous position as the Manager of Small Business and 
Disabled Veteran Business Enterprise Programs for the State Department 
of Transportation, Ms. Alvillar-Speake served the people of California 
well.
    She has had over twenty-five years of extensive administrative 
experience in business development and community outreach efforts.
    Before serving with the California Department of Transportation, 
Ms. Alvillar-Speake was Assistant Director of Business Relations for 
the California Employment Development Department for three years. Prior 
to that, she served with the Metropolitan Water District of Southern 
California and at the U.S. Department of Commerce from 1991 to 1993 as 
the Assistant Director for Program Development in the Minority Business 
Development Agency.
    In 1992, Ms. Alvillar-Speake founded a non-profit Minority Business 
Development Center called the National Economic Development Association 
to help ethnic minority owned business with financial development, 
construction assistance, and management advice. She started the 
organization in Fresno and soon centers spread statewide.
    She is a member of the Fresno County Fair Board of Directors and 
has served on a local bank's Community Reinvestment Act Advisory Board.
    I am happy to see the President nominate someone from California's 
central valley--the heart of our State's and our nation's agricultural 
economy. Ms. Alvillar-Speake represents the strength and diversity of 
the region well and it will benefit the Department of Energy to have 
her experience and perspective.
    Ms. Alvillar-Speake is a graduate of Fresno State University and 
received a MBA from Golden Gate University in my hometown of San 
Francisco.
    I would like to welcome her to the Committee and I wish her well.

    Senator Akaka. The rules of the committee, which apply to 
all nominees, require that nominees be sworn in in connection 
with their testimony, so I ask you to please rise and raise 
your right hand. Do you solemnly swear that the testimony you 
are about to give to the Senate Committee on Energy and Natural 
Resources shall be the truth, the whole truth, and nothing but 
the truth?
    Ms. Speake. I do.
    Senator Akaka. Thank you very much. You may be seated.
    Before you begin your statement, I will ask you three 
questions addressed to each nominee who will appear before this 
committee. Will you be available to appear before this 
committee and other congressional committees to represent 
departmental positions and respond to issues of concern to the 
Congress?
    Ms. Speake. I will.
    Senator Akaka. Are you aware of any personal holdings, 
investments, or interests that could constitute a conflict of 
interest or create the appearance of such a conflict should you 
be confirmed and assume the office to which you have been 
nominated by the President?
    Ms. Speake. My investments, personal holdings, and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government, and I have 
taken appropriate action to avoid any conflicts of interest. 
There are no conflicts of interest or appearances thereof to my 
knowledge.
    Senator Akaka. Are you involved, or do you have any assets 
held in a blind trust?
    Ms. Speake. No, I do not.
    Senator Akaka. We are delighted to have you here.
    Ms. Speake. Thank you, Mr. Chairman.
    Senator Akaka. Do you have any members of your family here?
    Ms. Speake. Unfortunately, my family is all in California. 
I have three children, three grandchildren, and two great-
grandchildren, so I am going to miss them, but I know that they 
are here in spirit. I do have some friends here with me today.
    Senator Akaka. Well, you are blessed, with a family like 
that.
    Before you begin your statement, Ms. Speake, I want to tell 
you that we are delighted to have you here and look forward to 
your testimony, so will you please proceed with your statement?

TESTIMONY OF THERESA ALVILLAR-SPEAKE, NOMINEE TO BE DIRECTOR OF 
  THE OFFICE OF MINORITY ECONOMIC IMPACT, DEPARTMENT OF ENERGY

    Ms. Speake. Thank you.
    Good morning, Mr. Chairman and members of the committee. My 
name is Theresa Speake, and I have a few remarks that I would 
like to make this morning, and as has been mentioned, my 
written statement. I would request that it be entered into the 
record, and I thank you.
    I am here today as the President's nominee for Director of 
the Office of Minority Economic Impact at the Department of 
Energy. If confirmed, I will be responsible for advising the 
Secretary of Energy on the impact of energy policies, of 
regulations and rules as they affect minorities, minority 
businesses, and minority institutions.
    I think it's important to note that I spent most of my 
life, almost all my professional career, working in the field 
of minority business development. I began my career with the 
National Economic Development Association, NEDA, in Fresno, 
California, in 1972. I worked with that organization until it 
closed down its operation in Fresno in 1980.
    In April 1981, because I felt that the need for continued 
services to minority and women business was still there, I 
started up a new venture called NEDA San Joaquin Valley, 
because we were located in the San Joaquin Valley. The NEDA San 
Joaquin Valley operated from 1981 until 1997. During that time, 
we assisted thousands of individuals reach their American dream 
of business ownership, and we provided technical assistance to 
many people.
    We also assisted hundreds of firms receive millions of 
dollars in funding and bonding, which are critical to small 
business growth. We also assisted firms to become certified and 
to bid successfully on contracts, and to provide--that provided 
products and services both within the public and private 
sector.
    I spent most of my career promoting opportunities for 
small, women, and minority-owned businesses. I was selected as 
the--in 1980 as the Woman Business Advocate of the Year in the 
State of California, and in 1990 I was awarded the National 
Minority Business Advocate of the Year by the Minority Business 
Department Agency.
    If I am confirmed to the position of Director of the Office 
of Minority Impact, I will strive to continue to provide equal 
opportunities for minorities, and to increase the participation 
of minorities in contracting opportunities at the Department of 
Energy. I propose to do this with the advice of the Secretary 
of Energy, this committee, other members of Congress, and the 
minority business community.
    I am honored to be here today, and I look forward to 
working with you. Thank you. I will answer any questions the 
members of the committee may have for me at this time.
    [The prepared statement of Ms. Speake follows:]

 Prepared Statement of Theresa Alvillar-Speake, Nominee to Be Director 
    of the Office of Minority Economic Impact, Department of Energy

    Mr. Chairman and members of the committee, it is my honor and 
privilege to testify before you today as the nominee of President 
George W. Bush to the position of Director of the Office of Minority 
Economic Impact at the Department of Energy.
    If confirmed by the Senate, I look forward to working with the 
Secretary of Energy in carrying out the statutory duties of the Office 
of Economic Impact and in advising the Secretary on the effects of 
energy policies, regulations, legislation and other actions of the 
Department on minorities, minority business enterprises and minority 
educational institutions.
    I would like to briefly discuss with you my credentials for the 
position and my thoughts on how I plan to make the program work for 
those it is intended to serve--women and minority businesses.
    I have been involved in the area of small and minority business 
development since the early seventies when I went to work for a 
national business development organization known as the National 
Economic Development Association (NEDA). NEDA was organized in 
California to assist Hispanic individuals and business owners and was 
initially funded by the U.S. Small Business Administration to operate 
eight business centers. They later obtained funding from the Office of 
Minority Business Enterprise (OMBE) in the Department of Commerce and 
moved their headquarters to Washington, D.C. I started my career in 
December of 1972 as the Administrative Assistant in the Regional Office 
in Fresno, California. I moved up the ladder in the organization 
becoming a Market Analyst in 1975 and the Director by 1978. In 1980, 
NEDA closed down its national operations including the Fresno Regional 
Office.
    In April of 1981, I founded NEDA San Joaquin Valley, a California 
business development organization, based on my observation of the 
continued need for management and technical assistance services to 
small, women and minority individuals and business owners. NEDA started 
with one office in Fresno, California and over the next sixteen years 
opened up centers in Riverside, Bakersfield, Tulare, Stockton, 
Sacramento, Oakland and San Francisco. Our services were provided to 
all ethnic minorities, women and small businesses. The goal of the 
organization was to start and expand the number of minorities in 
business. The type of services provided included business structuring, 
loan packaging, bonding assistance, certification services, 
contracting/procurement assistance and general management/marketing 
assistance.
    As the Director of NEDA, I worked closely with the U.S. Small 
Business Administration to ensure that firms got 8 (a) certified for 
federal contracting purposes, and with local, state and federal 
government agencies to obtain those certifications and to ensure the 
participation of minority firms in their contracting opportunities. I 
also developed working relationships with the private sector, including 
Pacific Gas & Electric, Southern Cal Edison, So-Cal Gas, Metropolitan 
Water District and Lawrence Livermore Laboratories. Additionally, I 
established working relationships with financial institutions such as 
Wells Fargo Bank, Washington Mutual Bank and the Bank of America.
    Each NEDA office worked closely with the Associated General 
Contractors to promote contracting, joint-venturing and/or mentoring 
opportunities between majority prime contractors and minority sub-
contractors. NEDA was also active with various minority, women business 
and trade organizations including, but not limited to, Pacific Asian 
Consortium in Employment (PACE), the Latin Business Association (LBA), 
California Black Business Chamber of Commerce, the California and U.S. 
Hispanic Chambers of Commerce and the Women Construction Owners & 
Executives (WCOE).
    As the Director of NEDA, I was selected as the Women's Business 
Advocate for the State of California in the 1980's and as the National 
Minority Business Advocate in 1991.
    From July of 1997 through June of 2001, I worked for the State of 
California continuing my efforts in support of small and minority 
business development. My last position in California was the Director 
of the Small and Disabled Veteran Business Program for the Department 
of Transportation.
    I have dedicated my professional life to promoting equal 
opportunity for all particularly in the area of business development. 
If confirmed by the Senate, it is my intent to continue this effort 
specifically with regard to promoting the increased participation of 
women and minorities in the contracting opportunities at DOE.
    Additionally, I propose to ensure that minorities are afforded an 
opportunity to participate fully in the energy programs of the 
department and to increase the participation of women and minorities in 
the contracting opportunities at DOE through a variety of measures 
including, but not limited to, the following:
    1. Increasing the awareness and sensitivity of the DOE staff to its 
commitment to women and minorities;
    2. Increasing the pool of women and minorities in the vendor data 
base at DOE;
    3. Providing timely contracting information to women and minority 
business organizations and educational institutions;
    4. Providing management and technical assistance to women and 
minorities wanting to do business with DOE; and
    5. Enlarging the range of economic opportunities available to women 
and minorities.
    In closing, I would like to restate my feelings about the great 
honor I feel for being nominated by President Bush to the position and 
the commitment I have to serving. I truly feel that my background and 
experience have prepared me for this position. If I am confirmed, I 
will seek the advice of the Secretary of Energy, this committee and 
other members of Congress as I attempt to effectively discharge the 
duties of the position of Director of the Office of Minority Economic 
Impact for the Department of Energy.
    Thank you. I will now entertain any comments and questions of you 
and your colleagues.

    Senator Akaka. Thank you very much, Ms. Speake. The 
position to which the President has nominated you, as we all 
know, is very, very important and, if confirmed, you will be 
responsible for promoting the role of small and minority- owned 
businesses at the Department of Energy, encouraging greater 
interest among minorities in science and engineering, education 
opportunities, also advising the Secretary on the impacts of 
energy policies and programs on minorities, and ensuring that 
racial and sexual discrimination and harassment are not 
tolerated within the Department, so these are very, very 
important to people.
    I have read your written statement, and the biographical 
statement you provided to the committee. I am convinced that 
you are a well-qualified person for this position. Your 
background clearly demonstrates your commitment to equal 
opportunity and to small and minority-owned businesses.
    I have no questions for you, Ms. Speake. I will simply 
congratulate you on your nomination and assure you of my 
support.
    Ms. Speake. Thank you very much, Mr. Chairman, and I would 
like to personally thank Senator Feinstein for her written 
comments. I did speak with her office yesterday, and she did 
want to be here, and I was hoping, as a California girl, that 
she could, but I want to thank her very much for her written 
statement, and I thank you very much for letting me speak 
today.
    Senator Akaka. I will certainly pass that on to her when I 
see her next.
    Ms. Speake. Thank you.
    Senator Akaka. All members will have until 5 p.m. this 
evening to file with the committee staff any additional 
questions they want you to answer for the record, and because 
we have no questions for you, we want to wish you well.
    Ms. Speake. Thank you very much. I appreciate your time. 
Thank you.
    Senator Akaka. Yes, thank you very much, Ms. Speake.
    [Whereupon, at 9:45 a.m., the hearing was adjourned.]


</pre></body></html>
